William R. Peterson

Partner
+1.713.890.5188
william.peterson@morganlewis.com

June 17, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
Re:

The Chamberlain Group, Inc. v. Techtronic Industries Co., et al.,
S.Ct. No. 19-1299

Dear Mr. Harris:
Respondents Techtronic Industries, Co. Ltd., Techtronic Industries North America, Inc., One
World Technologies Inc., OWT Industries, Inc., and Ryobi Technologies, Inc. respectfully request
an extension of time in which to file their Brief in Opposition to the Petition for a Writ of Certiorari,
which is currently due on July 8, 2020. Counsel for Respondents have a variety of other
professional and personal obligations that would make it difficult to complete the response before
the current deadline. Therefore, Respondents respectfully request, under Rule 30.4 of the rules of
this Court, an extension of 30 days, up to and including August 7, 2020. Petitioner The
Chamberlain Group, Inc. does not oppose the requested extension.
Respectfully submitted,

William R. Peterson
Counsel for Respondents Techtronic
Industries, Co. Ltd., Techtronic Industries
North America, Inc., One World Technologies
Inc., OWT Industries, Inc., and Ryobi
Technologies, Inc.
cc:

E. Joshua Rosenkranz
Orrick, Herrington & Sutcliffe LLP
51 West 52nd Street
New York, NY 10019
(212) 506-5000
jrosenkranz@orrick.com
Morgan, Lewis & Bockius
1000 Louisiana Street
Suite 4000
Houston, TX 77002
United States

LLP

+1.713.890.5000
+1.713.890.5001

